OFFICE OF INSPECTOR GENERAL


AUDIT OF AFRICAN
DEVELOPMENT FOUNDATION’S
MONITORING, REPORTING AND
EVALUATION SYSTEM
AUDIT REPORT NO. 9-ADF-05-008-P
August 17, 2005




WASHINGTON, DC
Office of Inspector General


August 17, 2005

MEMORANDUM

TO:                  African Development Foundation, President Nathaniel Fields

FROM:                IG/A/PA Director, Steven Bernstein /s/

SUBJECT:             Audit of African Development Foundation’s Monitoring, Reporting and Evaluation
                     System (Report No. 9-ADF-05-008-P)


This memorandum transmits our final report on the subject audit. In finalizing our report, we
considered your comments on our draft report and have included the first 15 pages of your
response in Appendix II. However, the 42 pages of guidelines and documents attached to your
response are not included in Appendix II.

This report contains 14 recommendations, including 10 recommendations to improve African
Development Foundation’s (ADF) monitoring, reporting and evaluation of its development
grants, 2 recommendations with costs savings of $101,000 and $135,000, and 2
recommendations regarding costs to be recovered and supported of $146,002 and $450,
respectively. In your written comments, you concurred with these recommendations, the dollar
amounts and identified planned or completed actions to address our concerns. Consequently,
we consider all recommendations to have received a management decision. ADF’s audit
committee must determine final action on these recommendations, and we ask that we be
notified of the audit committee’s actions.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.


cc: Board of Directors, African Development Foundation




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ......................................................................................................... 1

Background ...................................................................................................................... 2

Audit Objective .................................................................................................................... 2

Audit Findings ................................................................................................................... 4

Did the African Development Foundation have a monitoring, evaluation and
reporting system to effectively manage its activities? ........................................................ 4

     ADF’s Monitoring of Its Grant
     Close-out Process Needs
     Improvement ................................................................................................................. 4

     ADF Needs to Identify a
     Replacement Partner Organization
     in Namibia ..................................................................................................................... 5

     ADF Did Not Adequately Monitor
     and Evaluate the Jigawa Housing
     Projects ......................................................................................................................... 6

     ADF Needs to Improve Its
     Financial Audit Process................................................................................................. 9

     ADF Has Not Acted on a GAO
     Decision to Transfer Funds to the
     U.S. Treasury ................................................................................................................ 11

     An ADF Payment Does Not Have
     Adequate Support ......................................................................................................... 12

     ADF Improperly Paid $146,002 in
     Medical Costs for a Consultant of
     Its Namibia Partner ....................................................................................................... 13

Evaluation of Management Comments ........................................................................ .. 15

Appendix I – Scope and Methodology ......................................................................... ...17

Appendix II – Management Comments ........................................................................ ...19
SUMMARY OF RESULTS
The Performance Audit Division of the Office of Inspector General conducted an audit of the
African Development Foundation (ADF) to determine if it had a monitoring, reporting, and
evaluation system to effectively manage its activities (see page 2). As a result of our audit, we
concluded that ADF had a system for monitoring, evaluating and reporting on its activities; but
in several cases, as discussed below, there were weaknesses within the system, and the
system was not properly implemented to effectively manage ADF’s activities (see page 4).
We noted weaknesses in both ADF’s grant close-out and financial audit processes (see
pages 4 and 9). Furthermore, weak implementation of its monitoring, evaluating and reporting
system resulted in inaction on a GAO decision (see page 11), cost over-runs of almost 50
percent at its Jigawa housing projects (see page 6), and improper and unsupported costs of
$146,002 and $450 respectively (see pages 13 and 12). Lastly, unless the relationship with
the current partner organization that monitors, evaluates and reports on ADF-funded activities
in Namibia is extended or a replacement partner is found, after September 30, 2005, ADF will
not have a partner organization in Namibia to monitor its activities (see page 5.)

This report includes a total of 14 recommendations to: (1) strengthen the grant close-out
process (see page 5); (2) improve the financial audit process (see page 10); (3) ensure
partner organizations are involved in all projects in their country(s) of responsibility (see page
8); (4) audit the Jigawa projects’ expenditures (see page 9); (5) identify a partner organization
for Namibia (see page 6); (6) deposit funds into the U.S. Treasury as instructed by the GAO
decision (see page 12); (7) recover $146,002 that was paid improperly by ADF for the
medical related costs of a consultant (see page 14); and (8) obtain documentation to account
for the $450 advanced to a consultant (see page 12).

ADF provided extensive comments on the draft report, including 15 pages of comments, a 27
page attachment of its “Field Audit Guidelines and Instructions” and 15 pages of documents.
ADF agreed with and detailed actions it has taken or plans to take to implement all fourteen
recommendations in the report. Based on our review of their comments, we consider that
management decisions have been reached on all of these recommendations. However, to
attain final action on the recommendations, ADF’s audit committee must determine and notify
us that final action has been taken (see page 15) ADF’s 15 pages of comments are included
in Appendix II to this report (see page 19).




                                                                                                1
BACKGROUND
The African Development Foundation (ADF) was established as a government corporation by
the United States Congress in 1980 and began active program operations in 1984. ADF is
authorized to award grants, loans, and loan guarantees to African private or public groups,
associations or other entities engaged in peaceful activities. ADF provides funding to
empower grassroots groups to solve their problems in a self-reliant manner, while advocating
the adoption of participatory development practices as fundamental to achieving broad-based
economic growth and sustainable development in Africa. ADF has programs in 15 African
countries: Benin, Botswana, Cape Verde, Ghana, Guinea, Mali, Namibia, Niger, Nigeria,
Senegal, Swaziland, Tanzania, Uganda, Zambia, and Zimbabwe. In fiscal year 2004, ADF
had an appropriation of approximately $18.7 million and program expenditures of
approximately $13.5 million.

On October 17, 2004, ADF implemented a new organizational structure, describing new roles
and responsibilities of its staff members within various ADF/Washington headquarters’
offices. As well, the new structure is designed to ease communication among ADF (1)
Washington headquarters staff, (2) contracted country representatives, and (3) local partner
organizations. The new structure arranged ADF into five main divisions: Office of the
President, Field Operation Division, Development Policy and Knowledge Dissemination
Division, Management Division, and Finance Division.

In the majority of countries where ADF operates, it has established (1) a country
representative office for screening grant applications, monitoring project implementation, and
assessing project and program impact; and (2) a partnership with an indigenous
nongovernmental organization (NGO) that assists grassroots groups with all aspects of
project development and implementation. By working in partnership with the local NGO—and
strengthening its capacity—ADF aims to promote locally owned, sustainable development
solutions and establish self-supporting and sustainable local development agencies.

In November 1999, Public Law 106-113 amended the responsibilities of the USAID Office of
Inspector General, under Section 8A (a) of the Inspector General Act of 1978, to include audit
responsibility for ADF. This audit is the second of ADF field activities by the Office of
Inspector General, and it was initiated to follow up on the first audit, which had 11
recommendations.1 Of the 11 recommendations from the first report, 7 were implemented
and 4 remain open.



AUDIT OBJECTIVE
As part of the Office of Inspector General’s fiscal year 2005 audit plan, this audit was
conducted as a follow-up audit to a February 2003 performance audit entitled “Audit of
Awarding and Monitoring of Grants by the African Development Foundation.” The earlier audit
found, among other things, that ADF did not implement an effective system to monitor its

1
 Audit report number 9-ADF-03-005-P, dated February 28, 2003, and was the last ADF performance
audit performed by USAID OIG.



                                                                                                 2
projects. This follow-up audit was conducted to determine if ADF subsequently implemented
an effective monitoring system that allows it to track and document grantee progress toward
achieving its objectives.

The audit was conducted to answer the following question:

•   Did the African Development Foundation have a monitoring, evaluation, and reporting
    system to effectively manage its activities?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                         3
AUDIT FINDINGS
ADF had a system for monitoring, evaluating and reporting on its activities. However, in
several cases (as discussed below), there were weaknesses within the system, and the
system was not properly implemented to effectively manage its activities.

ADF’s Monitoring of Its Grant Close-
Out Process Needs Improvement

    Summary: ADF has not effectively managed its grant close-out process. The ADF
    Policy Manual requires that grant closeouts be completed no later than 150 days after
    the termination or expiration of the grant and that excess grant funds be deobligated.
    However, ADF did not have procedures that clearly defined responsibility for ensuring
    that grant closeouts were performed in line with ADF policy. Additionally, ADF did not
    have an adequate financial management system in place to facilitate the efficient
    closeout of grants. As a result, ADF, with only about 186 active grants, has a backlog
    of 161 expired grants needing closeout.

ADF policy requires that grant closeouts be completed no later than 150 days after the
termination or expiration of the grant and that excess grant funds be de-obligated.
Nevertheless, ADF, with only about 186 active grants, currently has 161 grants that are
overdue for closeout. The expiration dates for these grants go back as far as October 31,
2001, and span 14 African countries. According to unaudited data provided by ADF’s Chief
Financial Officer (CFO), these grants total $2,040,287 in unexpended and/or unaccounted-for
funds due from grantees and an additional $948,644 in obligated but undisbursed funds that
could potentially be deobligated. This situation arose because (1) ADF did not have a financial
management system that facilitated the efficient closeout of grants and (2) ADF did not have
procedures in place that clearly defined responsibility for the grant close-out process.

Currently, ADF uses a database to track the status of its grant funds. Three key components of
this system—the table recording budget information, the table recording expenditures, and the
table recording disbursements—each stand alone without any connection to the other key
tables. As a result, these three unrelated tables must be manually combined in a spreadsheet
to provide an overview of each grant’s activities. Moreover, ADF has to reconcile the
information in its database to the grantee financial reports during the close-out process. This
inability to easily produce accurate and useful reports from the grants database hampers
ADF’s management of the grant close-out process. This situation is intensified by ADF’s lack
of procedures clearly defining grant close-out responsibilities, which also caused delays in
grant closeouts. For field operations, the ADF policy manual was outdated2, and for ADF
headquarters staff, there was a lack of clarity as to who had responsibility for the various
aspects of grant closeout.

ADF is taking action to improve in this area. For example, ADF officials indicated that they
have hired a contractor to create a new grants database which is expected to be Internet-
based, will provide greater control over disbursements and will incorporate program
performance information. Additionally, during late 2004 and early 2005, ADF reorganized its

2
 The African Development Foundation issued an updated policy manual dated February 11, 2005;
section 633 refers to grant closeouts.
                                                                                               4
headquarters functions and revised its grant close-out policy, which served to clearly define
ADF Washington staff close-out responsibilities and consolidate those functions—which had
previously been spread among several departments—within one headquarters department.

By taking action to improve its database and formally define the roles for its field operations
and headquarters staff, ADF has taken steps to better manage its close-out process.
Nevertheless, at the time of the audit 161 grants were overdue for closeout and ADF could not
easily produce accurate and useful reports to support the closeout process. Thus, we
recommend that ADF implement the following two recommendations to further strengthen its
close-out process.

      Recommendation No. 1: We recommend that the African Development Foundation
      close out expired grants and take immediate action to recover all material amounts due
      from grantees and, as necessary, de-obligate undisbursed funds.

      Recommendation No. 2: We recommend that the African Development Foundation
      assign close-out responsibilities to key individuals.


ADF Needs to Identify a Replacement
Partner Organization in Namibia

    Summary: ADF policy requires that a partner organization be available in a country to
    monitor, evaluate and report on the development activities in the country for which it has
    responsibility. ADF and its current partner organization in Namibia have mutually
    agreed not to renew their cooperative agreement, but ADF has not taken formal action
    to identify a replacement partner. As a result, at the end of the current agreement—
    September 30, 2005—ADF will not have a partner organization in Namibia to monitor,
    evaluate and report on ADF’s development activities there. Furthermore, with the
    limited time available before the current cooperative agreement expires, the new
    partner organization—if found—may not have sufficient time to develop an adequate
    knowledge of the existing grants and ADF’s monitoring, evaluating and reporting
    requirements.

Effective monitoring of grant activities is crucial to the success of those activities. In pursuing
its mission, ADF relies heavily on its partner organizations in the implementation, monitoring,
and reporting of grant activities. According to ADF policy3, a partner organization (1) is the
primary technical assistance provider to the grantee and (2) monitors the activities and
performance of all projects in its country. The partner is also responsible for sending monthly
reports on grantee activities to ADF headquarters. In the case of ADF and its partner
organization in Namibia, the cooperative agreement between ADF and its Namibian partner
specifically assigns monitoring, evaluating and reporting responsibilities to the partner
organization.

ADF and its current partner in Namibia have mutually agreed not to renew their cooperative
agreement, which was to expire in July 31, 2005 but has been extended to September 30,
2005. As of May 2005 ADF had not identified a replacement partner.


3
    ADF Manual Section 630
                                                                                                 5
Without a partner organization in Namibia, the success of ADF’s activities in Namibia will be at
risk. Without an in-country partner organization, monitoring, evaluating and reporting will
become the responsibility of the country representative in neighboring Botswana as
supplemented by intermittent visits from ADF Washington-based staff. There will be increased
risk that ADF’s current and planned development activities in Namibia may not be properly
monitored, reported and evaluated. Furthermore, with the limited time available before the
current cooperative agreement expires, the new partner organization—if found—may not have
sufficient time before assuming responsibility to develop an adequate knowledge of the
existing grants and ADF’s monitoring, evaluating and reporting requirements. Thus, for the
above reasons, we are making the following recommendations.

      Recommendation No. 3: We recommend that the African Development Foundation
      replace its partner organization in Namibia as soon as possible.

      Recommendation No. 4: We recommend that the African Development Foundation
      defer implementing new development projects in Namibia until it has a replacement
      partner organization in Namibia to monitor, report and evaluate its in-country activities.


ADF Did Not Adequately Monitor and
Evaluate the Jigawa Housing Projects

    Summary: Project monitoring is an important element in tracking grantee progress in
    achieving project goals, and ADF policy requires a variety of monitoring techniques to
    ensure project goals are met. However, ADF did not adequately monitor and evaluate
    the progress or expenditures of its four Jigawa, Nigeria housing projects. ADF did not
    assign monitoring and reporting responsibilities for these projects to its Nigerian partner
    organization, but instead relied on the implementing entity to monitor and report on its
    own activities. As a result, actual costs exceeded the original budgeted amount by
    $350,000—42 percent more than originally budgeted. Construction was completed 6
    months later than the targeted completion dates, and the quality of the construction was
    problematic.

In September 2002, ADF entered into grant agreements with four community groups4 to
construct 400 low-cost houses for flood victims in Jigawa State, Nigeria. ADF, together with the
Jigawa State Government (JSG), which had agreed to contribute 50 percent of the total
estimated funding for the project, hired consultants—the Project Management Team (PMT)—
to assist in the implementation of this $820,000 project. The four projects had targeted
completion dates of September 30, 2003.

During the audit, we determined that ADF did not adequately monitor and evaluate the
progress of the Jigawa housing projects. Effective monitoring of projects is an important
element in tracking grantee progress towards meeting project goals and objectives, keeping
apprised of any project implementation problems and facilitating prompt resolution of issues
that might threaten project success. In fact, ADF policy incorporates a variety of monitoring
techniques. For example, it requires that monitoring plans—including project site visits and the
assignment of monitoring responsibilities—be prepared for each project. It also requires that

4
 The grantees were Auyo Youth Association, Marawa Youth Self Help Group, Nassarawa Farmers
Association, and Gululu Social and Development Association.
                                                                                                   6
ADF partner organizations maintain substantial direct operational involvement with grantees to
ensure that grants are effectively monitored. Lastly, ADF policy notes that the cognizant ADF
representative (or other ADF program staff) is expected to visit each project at least annually
and that the accuracy of the progress reports prepared and submitted by grantee be verified
during those site visits.

Despite this conceptual emphasis on monitoring, we noted several issues that cast doubt on
the effectiveness of ADF’s monitoring. For instance, contrary to its above policy, ADF did not
assign its Nigerian partner organization, Diamond Development Initiatives (DDI), to monitor the
projects; instead, ADF relied on PMT to perform the monitoring, evaluation and reporting
functions. Similarly, the PMT did not route financial and work progress reports to ADF through
DDI, which could have verified the reports. Instead, ADF received the reports directly from the
PMT, which frequently provided inaccurate data concerning the progress the grantee and the
PMT were making in the construction of housing and in achieving the grant objectives.

In addition, ADF did not adequately monitor the projects’ expenditures. PMT received project
funds and made project expenditures without ADF’s knowledge and authorization. During the
first year of construction, ADF reported they had completed 85 to 95 percent of the work at all
four sites as anticipated. However, this was not the case: the buildings required significant
additional construction, and the PMT required significant additional funding to complete this
work. Only after the project experienced financial overruns resulting in a budget increase did
ADF finally instruct DDI to become more involved in monitoring and evaluating the project.
Moreover, even though the project paper for the Jigawa Housing projects stated that ADF
would have the projects audited, ADF instead settled for a financial review conducted by its
internal auditor and did not include these projects in its list of grants to be audited for Fiscal
Year 2005. This situation was exacerbated by the fact that ADF did not have a country
representative present on the ground in Nigeria. At the time the project was in progress, ADF’s
country representative for Nigeria was stationed in Washington, DC.                 The country
representative’s absence from Nigeria hampered his ability to manage the project.

As a result of ADF’s lapses in monitoring and evaluating these projects:

•   The cost of the projects exceeded the original budgeted amount by about $340,000, raising
    the total budget to $1,160,000.

•   PMT completed the projects 6 months after the targeted completion dates, which was 50
    percent longer than anticipated. Although ADF had reported that the projects were 85 to 95
    percent complete within the first year, the actual completion dates exceeded the prescribed
    one-year timeframe by 6 months.

•   As can be seen in the following photographs, the quality of the workmanship was
    questionable. At the time of the audit fieldwork, doors were already falling off the buildings,
    termites had infested the walls and wooden frames, cement and brick walls were
    crumbling, and there was a lack of proper drainage.




                                                                                                 7
Photograph of a house with door that      Photograph of poor drainage next to the
came off Its hinges, Marawa Jigawa         side of a house, Marawa, Jigawa
(December 2004)                            (December 2004)




Photograph of a crumbling wall within the compound of houses,
Marawa, Jigawa (December 2004)

To avoid the problems that occurred with the Jigawa housing projects, ADF should develop a
policy and perform the required audit as recommended below:

   Recommendation 5: We recommend that the African Development Foundation require
   that the African Development Foundation’s Board of Directors be immediately notified
   of any project where the country representative or partner organization is not actively
   engaged in the monitoring, evaluation and reporting of project activities.

                                                                                             8
   Recommendation 6: We recommend that the African Development Foundation engage
   a public accounting firm to conduct an audit of the project’s expenditures, in
   accordance with the United States Generally Accepted Government Auditing
   Standards.


ADF Needs to Improve its
Financial Audit Process

 Summary: A 2003 USAID Office of Inspector General audit report made several
 recommendations to improve ADF’s external audit function. These recommendations, if
 implemented, would have improved the financial audit process associated with
 grantees’ expenditures of ADF funds. Although ADF agreed in 2003 to implement
 these recommendations, it has not yet done so. The management weaknesses which
 these recommendations addressed continue to exist because ADF has not allocated
 sufficient managerial resources to developing and managing its financial audit process.
 As a result, ADF has not effectively managed its non-federal financial audit process and
 has reduced assurance that its grantees’ expenditures are reasonable, allocable and
 allowable.

In 2003 ADF agreed to implement several recommendations pertaining to its audit function.
These recommendations were included in OIG Audit Report No. 9-ADF-03-005-P, issued on
February 28, 2003, and stated that ADF should:

       •   Establish a minimum threshold for the value of grants that will be audited and
           establish annual audit plans to ensure that, at a minimum, all grants that exceed the
           threshold are audited at an appropriate point during the grant lifecycle (Audit
           Recommendation No. 6).

       •   Provide its annual audit plan to the OIG by October 1 of each fiscal year (Audit
           Recommendation No. 7).

       •   Establish and implement specific policies and procedures for an audit quality-
           control program designed to ensure that audits are completed in accordance with
           Foundation requirements and appropriate audit standards (Audit Recommendation
           No. 8).

       •   Develop procedures to ensure that audits of partner organizations are included in
           the Foundation’s annual audit plan (Audit Recommendation No. 9).

       •   Contract with qualified U.S. or local accounting firms to conduct audits of funds
           provided to partners and require that these audits be subject to consistent and
           appropriate quality-control review by the Foundation’s Internal Auditor (Audit
           Recommendation No. 10).

ADF’s policy manual Section 332 includes its officially issued guidelines pertaining to grant and
field audits. This section, which was in effect at the date of the above-mentioned audit, has not
been officially modified or replaced to comply with the above recommendations. However,
ADF is drafting amended guidelines to address these recommendations.


                                                                                               9
Nevertheless, at the time of our fieldwork, ADF had not yet complied with five previous OIG
audit recommendations related to their financial audit process. More specifically, ADF had not:

       •   Formally established a minimum audit threshold level or an effective methodology
           for determining when and what grants should be audited during the grant lifecycle.

       •   Prepared and submitted on a timely basis (by the October 1 due date) its annual
           audit plan to USAID’s OIG.

       •   Established procedures for or performed quality-control reviews of completed
           financial audits using generally accepted government auditing standards (GAGAS)
           and its own Guidelines to determine compliance with audit standards.

       •   Included its partner organizations in the scope of its annual audit plans.

       •   Contracted with qualified U.S. or local accounting firms to conduct audits, in
           accordance with GAGAS, of its partner organizations on an annual basis.

We found several reasons why ADF did not comply with and officially implement the above-
mentioned recommendations. First, ADF has recently undergone a restructuring of its
headquarters, which has resulted in a reduction of the number of employees focusing on the
financial audit process from two to one. Additionally, in the last year, ADF hired a new CFO,
further affecting its implementation of these recommendations. Regarding audits of its partner
organizations, ADF said that they were unaware of the need to include the audits of partner
organizations in its audit plan. Furthermore, ADF officials stated that they were unaware that
approved CPA firms were not being used.

As a result, ADF has not effectively managed its non-federal financial audit process to help
ensure accountability over funds it provided to grantees. Furthermore, ADF has reduced
assurance that these funds are being expended as intended.              To enhance ADF’s
accountability over funds provided to grantees and partner organizations, we are making the
following recommendations.

   Recommendation No. 7: We recommend that the African Development Foundation
   formally establish a minimum audit threshold level and an effective methodology for
   determining when its awards should be audited.

   Recommendation No. 8: We recommend that the African Development Foundation, by
   October 1 of each year, prepare and submit a comprehensive annual audit plan to the
   USAID/OIG that includes its audit plans for grants and partner organizations.

   Recommendation No. 9: We recommend that the African Development Foundation
   establish procedures to perform desk and quality-control reviews of completed financial
   audits, using the United States Generally Accepted Government Auditing Standards
   and its own audit guidelines, to determine compliance with audit standards.




                                                                                             10
            Recommendation No. 10: We recommend that the African Development Foundation
            develop screening procedures to ensure the competency of the independent audit firms
            it selects to perform its external financial audits and, where possible, use independent
            audit firms already on the USAID Office of Inspector General’s list of approved audit
            firms.


ADF Has Not Acted on a GAO Decision
To Transfer Funds to the U.S. Treasury

          Summary: ADF has not complied with a U.S. Government Accountability Office (GAO)
          decision recommending that it terminate its contract with the Government of Guinea and
          deposit any proceeds from the contract into the general fund of the U.S. Treasury as
          miscellaneous receipts. According to ADF, the delay in transferring the funds to
          Treasury was due to ADF’s attempt to collect the total amount of funds due before
          making the transfer and to major personnel changes in the ADF finance office.
          Because of the delay in transferring funds to the Treasury, about $101,000 was not
          available for use by other U.S. Government programs.

The U.S. Code allows the heads of Federal agencies to request decisions on certain financial
matters from the Government Accountability Office (GAO). The President of ADF requested a
decision from GAO concerning funds that it receives from partnerships with certain African
governments. In addressing ADF’s partnership with the Government of Guinea (Guinea), GAO
concluded that it—unlike ADF’s other partnerships—involved a contract where Guinea pays
ADF for services that ADF provides to certain development sites selected by Guinea, but
which were not served by ADF grantees. GAO determined that ADF did not have the statutory
authority to enter into contracts to provide services to Guinea and that ADF should (1)
terminate those contracts5 and (2) deposit any proceeds from those contracts into the general
                                  P   P




fund of the U.S. Treasury as miscellaneous receipts. ADF accepted this decision and planned
to transfer funds received from Guinea to the U.S. Treasury.

At the time of our audit, ADF had received approximately $101,000 related to one of its
contracts with Guinea. However, it had not yet received any payments for work that it
performed under the other two contracts, the value of which was estimated at $134,918.6 In         P   P




addition, ADF had not initiated final action to collect the balance of the payments due.

     Despite the fact that ADF agreed with the March 2003 GAO decision, none of the funds have
     been transferred to the U.S. Treasury. According to ADF management, the delay resulted
     from ADF’s:

                   •   Intention to collect the total amount due from Guinea before making the transfer
                       to the U.S. Treasury.

                   •   Major personnel changes in its finance office (such as a new Chief Finance
                       Officer) that focused on other priorities.

5
 Although the GAO decision only makes reference to a single contract with Guinea, according to an
TP   PT




ADF official, there were a total of three contracts between ADF and Guinea.
6
TPADF staff could not locate the relevant contract files. The estimated value of $134,918 was developed
     PT




from available documentation.
                                                                                                           11
An ADF official asserted that funds already received from Guinea would be transferred to
Treasury by June 2005. Nevertheless, ADF’s failure to transfer the payments received to the
U.S. Treasury in a timely manner deprived the Treasury of needed funds and left ADF in
noncompliance with GAO’s decision.

We believe that ADF should act to rectify this situation as quickly as possible. Accordingly, we
are making the following recommendations.

   Recommendation No. 11: We recommend that the African Development Foundation
   transfer the $101,000 in funds it received from the Government of Guinea under its
   partnership contract for services provided to Guinea into the General Fund of the
   United States Treasury.

   Recommendation No. 12: We recommend that the African Development Foundation
   take action to collect the balance of payments of about $135,000 due from the
   Government of Guinea under two partnership contracts for services provided to Guinea
   but for which the Fund was never paid. If the payments are collected, the African
   Development Foundation should transfer the funds for deposit into the General Fund of
   the United States Treasury as miscellaneous receipts, but if the funds are not
   recoverable, the African Development Foundation should document in its records that
   the remaining payments are uncollectible.


An ADF Payment Does
Not Have Adequate Support

 Summary: Federal Government standards for internal control require that all
 transactions need to be clearly documented. However, ADF issued a $450 travel
 advance—associated with a consultant of its Namibia partner organization—that has
 not been liquidated or supported with adequate documentation. ADF was unable to
 obtain an accounting of the travel expenses associated with the advance. As a result,
 ADF had less money available to fund its programs and operations.

The Standards for Internal Controls in the Federal Government state that all transactions need
to be clearly documented. Nevertheless, during the audit, we noted that ADF had incurred and
paid a travel advance of $450—associated with a consultant of its Namibia partner
organization—that was not supported with adequate documentation. This advance continues
to remain outstanding 23 months after the consultant stopped providing services for ADF.
Travel advances are normally recognized as receivables and are only expensed once the
advance has been liquidated by the traveler.

In explaining the unliquidated travel advance, ADF officials stated that a proper accounting for
or repayment of the advance was initially delayed due to the consultant’s incapacitation after
an accident.

As a result of the above mentioned payment, ADF had less money available to fund its
programs and operations. Accordingly, we are making the following recommendation.




                                                                                             12
   Recommendation No. 13: We recommend that the African Development Foundation
   obtain documentation to liquidate the $450 travel advance. If an accounting liquidating
   the advance payment cannot be obtained, we recommend that the African
   Development Foundation’s Chief Financial Officer take action to recover as
   appropriate, the above-mentioned unsupported cost.


ADF Improperly Paid $146,002 in Medical Costs
For a Consultant of Its Namibia Partner

 Summary: ADF incurred and paid costs of $146,002 pertaining to the medical care of a
 consultant of one of its partner organizations. These costs did not appear to support
 ADF’s goals, as established by Congress, and ADF did not have a contractual or legal
 obligation to pay them. However, ADF made these payments based on humanitarian
 grounds and its promise to pay. As a result of these expenditures, the Foundation had
 significantly less funding to carry out the purposes for which it was established.

ADF was established to empower African grass roots organizations to solve their problems in a
self-reliant manner. To that end, Congress declared that ADF was to:

       •   Strengthen the bonds of friendship and understanding between the people of Africa
           and the United States.

       •   Support self-help activities at the local level designed to enlarge opportunities for
           community development.

       •   Stimulate and assist effective and expanding participation of Africans in their
           development process.

       •   Encourage the establishment and growth of development institutions which are
           indigenous to particular countries in Africa and which can respond to the
           requirements of the poor in those countries.

While ADF would normally be expected to incur costs furthering the pursuit of those goals, we
found that ADF made certain expenditures pertaining to the medical care of a consultant—
hired by one of its indigenous partners—that did not appear to support the above goals.

This consultant was hired by the Namibia partner to provide technical assistance related to its
ADF program. Approximately 6 weeks after the consultant arrived and had been working in
Namibia, he was involved in a serious automobile accident. It seems that during the course of
monitoring Namibian Development Foundation (NAMDEF) field projects, the consultant
decided to drive to a game park for the weekend. Contrary to both the terms and conditions of
NAMDEF’s cooperative agreement with ADF and to ADF’s vehicle use policy, a NAMDEF staff
member gave the consultant an ADF vehicle to drive to the game park. Unfortunately, while
driving, the off-duty consultant was involved in a serious accident and sustained life-
threatening injuries. He subsequently underwent medical evacuations to Windhoek, Namibia,
where he received immediate medical treatment, and to Johannesburg, South Africa, where he
received additional treatment. Ultimately, ADF approved and paid the following costs related
to the consultant’s medical evacuations and treatment by adding funds to its cooperative
agreement with NAMDEF.


                                                                                             13
Questionable Amounts Paid
Related to NAMDEF Consultant



                                              Date
    Payee                 Purpose             Approved Amount
    International         Medical Treatment &
    SOS, Inc.             Evacuation          2/18/2004 $119,986.00
    Medi-Clinic           Medical Treatment   2/23/2004 $ 19,189.00
    Lawyer
    (NAMDEF)7             Legal Service                      2/23/2004        $ 6,827.00
    Total                                                                     $146,002.00

We believe that ADF’s payment of these costs is questionable. ADF did not have a contractual
or legal obligation to pay the consultant’s medical costs. First, there was no signed contractual
agreement between ADF and the consultant. Second, the consultant was not working on U.S.
Government business when the accident occurred. Finally, NAMDEF’s provision of the vehicle
to the consultant was contrary to both its agreement with ADF and ADF’s vehicle policy.
Moreover, and more importantly, in our opinion, ADF’s payment of the consultant’s medical
costs do not appear to further the Congress’ goals for ADF.

ADF’s records seemed to indicate that ADF staff themselves had questions concerning the
propriety of making these payments. In November 2003, ADF’s General Counsel concluded
that the medical expenses could not be properly charged to ADF’s appropriations. However, in
January 2004, the General Counsel issued another opinion, this time opining that ADF could
make the payments on humanitarian grounds based on previous payments made by the U.S.
Agency for International Development (USAID). It should be noted, however, that the USAID
payments were (1) made under different circumstances and (2) made under the authority of—
and with funding to carry out the provisions of—the Foreign Assistance Act of 1961 (FAA). In
contrast, ADF is provided an appropriation to carry out the International Security and
Development Cooperation Act of 1980, rather than the FAA.

ADF did ultimately use the basis of humanitarian grounds to justify and make these payments.
However, as a result, the Foundation had significantly less funding to carry out the purposes
for which it was established. Accordingly, we are making the following recommendation.

      Recommendation No. 14: We recommend that the African Development Foundation
      recover the $146,002 paid to cover the cost of medical evacuation and treatment for
      NAMDEF’s consultant.




7
 NAMDEF hired a lawyer to provide legal services related to legal action that was threatened by some of the medical service
providers.


                                                                                                                              14
EVALUATION OF
MANAGEMENT COMMENTS
African Development Foundation (ADF) provided extensive comments on the draft report.
Their response included 15 pages of comments, a 27 page attachment of its “Field Audit
Guidelines and Instructions” in response to Recommendation No. 7, and 15 pages of
documents relating to Recommendation No. 13. ADF’s 15 pages of comments are included in
Appendix II to this report.     However, the guidelines and documents provided for
Recommendation Nos. 7 and 13 respectively are not included in Appendix II.
ADF agreed with and detailed actions it has taken or plans to take to implement all 14
recommendations in the report. Based on our review of their comments, we consider that
management decisions have been reached on these fourteen recommendations. However, to
attain final action on all the recommendations, ADF’s audit committee must determine and
notify us that final action has been taken.
More specifically, for Recommendation No. 1, ADF agreed with the recommendation and said
that it has begun an intensive effort to eliminate the backlog of grant close outs by the end of
the current fiscal year. ADF also agreed with Recommendation No. 2 and said it has created
four Portfolio Manager positions who are responsible for overseeing grant close outs.
Regarding the need for a replacement partner organization in Namibia, ADF agreed with
Recommendation Nos. 3 and 4. ADF says it plans to extend the expiration date of the
agreement with the current partner organization until December 31, 2005 and that it has
cancelled all plans to develop new projects in Namibia this fiscal year.
For the two recommendations relating to the Jigawa housing projects, ADF agreed with
Recommendation Nos. 5 and 6. In response to Recommendation No. 5, ADF said that its
President will provide the Board with written notification of any instances where the Country
Representative or Partner Organization is not expected to actively participate in the monitoring,
evaluation and reporting of the project’s activities. ADF commented that the projects
performed well by Jigawa State standards and were constructed commendably by Nigerian
standards. Nevertheless, with the involvement of United States funds and as an example of
United States assistance, the quality of workmanship reflected deficiencies that should not be
associated with United States standards. ADF also commented on the photographs in the
report, saying that the photographed wall was not within the scope of the projects, the standing
water depicted the household’s fresh wash water and for the photograph of the “falling doors,”
all exterior doors, including those that are not damaged will be repaired or reinforced.
Nevertheless, the pictures in the report were all taken at the project sites and reflect our actual
observations. During our site visit, additional instances of crumbling walls, standing water and
problem doors were noted. For Recommendation No. 6, ADF said it will contract with a public
accounting firm to conduct an audit, in accordance with generally accepted government audit
standards, of the Jigawa housing program.
ADF agreed with Recommendation Nos. 7, 8, 9 and 10 which are intended to improve its
financial audit process. In response to these recommendations, ADF agreed to formally
establish a minimum audit threshold and an effective methodology for determining when its
awards should be audited (Recommendation No. 7), and it agreed to submit an annual audit
plan to the USAID/OIG by October 1 of each fiscal year (Recommendation No. 8). ADF said



                                                                                                15
that it had already implemented Recommendation Nos. 9 and 10. Nevertheless, the audit
noted instances where ADF audits had not been conducted in accordance with generally
accepted government audit standards (Recommendation No. 9) and qualified U.S. or local
accounting firms had not been used. Thus, these two recommendations were made in an
effort to further enhance ADF’s financial audit process.
Regarding funds collected from and to be collected from the Government of Guinea, ADF
agreed with our Recommendation Nos. 11 and 12. For Recommendation No. 11, ADF said it
is pursuing the means to transfer funds approximating $101,000 to the United States Treasury.
For Recommendation No. 12, ADF said it has made repeated but unsuccessful attempts to
collect the $135,000 from the Government of Guinea. Thus, it has decided that these funds
are uncollectible, and has so noted this in their records.
For Recommendation No. 13 ADF agreed with our finding and recommendation regarding the
$450 travel advance that was not liquidated and continues to remain outstanding. However,
ADF provided us with documentation regarding the questioned $10,257 in “salary” payments
made directly to the consultant. As a result of this documentation, we have accordingly
modified our final report and recommendation, eliminating our discussion of the $10,257 in
“salary” payments.
Regarding Recommendation No. 14, ADF agreed with our recommendation and said it will
initiate collection procedures to recover the $146,000 in questioned medical costs. However, it
disagreed with the discussion of our finding and felt that its payment of these costs was proper.
Its justification for this payment was a cable – dated December 23, 2003 – from the United
States Ambassador in Namibia asking ADF to pay these medical costs, because their non-
payment was having a negative impact on the standing of the U.S. Mission in Namibia.
However, on August 18, 2003, two days after the accident and four months before the
Ambassador’s letter, ADF wrote a letter to the hospital in Namibia which said:
       “This letter serves to confirm that our foundation will be assuming all reasonable
       costs for the care and recuperation of the above patient at Windhoek Med-
       Clinic. We are global clients of SOS International and have identifiable
       references with the US Embassy in Windhoek.”
Later, on November 25, 2003, a representative of ADF met with and informed the hospital that
there was a legal ruling prohibiting ADF from using U.S. Government funds to pay the medical
costs of the consultant. The above-quoted August 18, 2003 letter committed ADF to making
these payments, and, in our opinion, it is this commitment and promise to pay that was
improper and that ADF did not have the authority to make. Additionally, this August 18 letter,
by referring to the US Embassy, ADF’s November meeting with hospital officials and its non-
payment of the costs incurred by the hospital put the U.S. Mission in Namibia in a negative
standing and resulted in the Ambassador having to issue the December 23, 2003 cable.
In summary, management decisions have been reached on all 14 recommendations and final
action can be attained by ADF’s audit committee determining and notifying us that final action
has been taken.




                                                                                              16
                                                                                 APPENDIX I




SCOPE AND METHODOLOGY
Scope
The Office of Inspector General’s Performance Audit Division conducted this audit in
accordance with generally accepted government auditing standards. The audit covered the
period of ADF’s operations from October 1, 2002, to September 30, 2004, and was conducted
at ADF Headquarters from October 2004 to May 2005. In addition, fieldwork was performed in
Nigeria from November 30, 2004, to December 16, 2004, and in Botswana from February 2,
2005, to February 18, 2005.

To answer the audit objective, we met with Foundation staff in Washington, DC, and with
Foundation partner organization and country representative staff in Nigeria and Botswana. In
addition, we conducted field site visits to 9 out of 19 grantees in Nigeria and to 7 out of 12
grantees in Botswana, meeting with grantee representatives and beneficiaries and observing
their project operations. Countries visited were judgmentally selected based on number of
grants, total dollar amount of grants, stage of grant lifecycles, and input from ADF
management. As of September 30, 2004, ADF had approximately 186 active grants, including
cooperative agreements with their 12 partner organizations. We also reviewed ADF’s
relationship with its partner organization in Namibia, as well as the costs associated with
activities performed by a contractor working with the Namibia partner organization.

In conducting the audit, we gathered evidence through reviews of ADF, partner organization,
and country representative files, reviews of ADF policy manuals, and reviews of external
evaluations, as well as through direct observation. We also conducted limited reviews of
grantee files for the grantees visited in Nigeria and Botswana.

While performing our audit, we encountered a scope impairment in attempting to calculate the
effect of ADF’s noncompliance with a GAO decision regarding three contracts ADF serviced
with the Government of Guinea.

A Representation Letter was provided by ADF management.

The Grant Close-Outs section of our report (see page 4) cites expenditure and disbursement
figures relating to grants due for closeout. The amounts cited were provided by ADF and were
not verified by us during this audit. We did not attempt to verify this data because the
verification of the data would not have a significant impact on our recommendation and ADF
management openly admitted to inaccuracies in the grantee expenditure figures.

In planning and performing the audit, we obtained an understanding of management controls
pertaining to the African Development Foundation’s monitoring, evaluation, and reporting
system. We examined significant internal controls such as (1) ADF’s system for monitoring
grantee progress, (2) ADF’s quality-control system for audits conducted by accounting firms,
(3) ADF’s system for developing an audit universe, (4) ADF’s system for processing grant
closeouts, and (5) ADF’s system for evaluating grantee performance.




                                                                                           17
                                                                                  APPENDIX I


The audit included a review of prior OIG audit reports on ADF and considered the findings
affecting areas we were reviewing. In addition, the audit included a limited review of external
financial audits of grantees performed by independent auditors.

Methodology
In order to determine if ADF had a monitoring, evaluating and reporting system to effectively
manage its activities, we (1) reviewed U.S. government laws and regulations, and ADF’s
policies and procedures, (2) reviewed ADF administrative and project files in Washington and
at ADF partner organization and country representative offices in Nigeria and Botswana, (3)
looked at grantee files and financial audit reports for the grantees visited in Nigeria and
Botswana, (4) conducted interviews with ADF headquarters staff in Washington, DC and ADF
partner organization, country representative, and grantee staff in Nigeria and Botswana, and
(5) reviewed prior Office of Inspector General (OIG) audit reports on ADF and a Government
Accountability Office Decision concerning ADF “Retention of Funds from Strategic Partnership
Agreements with Certain African Governments.” Additionally, we reviewed ADF Headquarters’
Namibia partner organization files and documents associated with the contractor working for
the Namibia partner organization. We also conducted telephone interviews with Namibia
partner organization staff, requesting information associated with their relationship with ADF,
as well as details of work performed by the contractor.




                                                                                            18
                                                                                 APPENDIX II




MANAGEMENT COMMENTS
July 29, 2005


MEMORANDUM

TO              :     IG/A/PA Director, Nathan S. Lokos

FROM            :     Nathaniel Fields, ADF President /s/

SUBJECT         :     Audit of the African Development Foundation’s Monitoring,
                      Reporting, and Evaluation System (Report No. 9-ADF-05-008-P)


The African Development Foundation (ADF) appreciates the time and attention the Office of
the Inspector General (OIG) has devoted to this Audit Report and to commenting on ADF’s
operations in general. The following is our response to each of the fourteen recommendations
in the Report. As appropriate, we have set forth the planned corrective action and target date
for implementing the recommendation. In addition, we have summarized our response in a
matrix. We do not agree fully with some of the Report’s findings. In those instances, we have
provided factual information to support our position.


Recommendation 1: We recommend that ADF close-out expired grants and take
immediate action to recover all material amounts due from grantees and, as necessary,
deobligate undisbursed funds.

ADF Position: We concur.

Discussion: In February 2005, ADF began an intensive effort to eliminate the backlog of grant
close outs by the end of the current fiscal year. ADF Portfolio Managers are reviewing
information on expired grants, identifying and recommending actions on recovery of disbursed
amounts and, as appropriate, the deobligation of undisbursed balances.

Recommendation 2: We recommend that ADF assign close-out responsibilities to key
individuals.

ADF Response: We concur.

Discussion: As part of its October 2004 reorganization, ADF created four Portfolio Manager
positions in its new Management Division. Management has assigned to the Portfolio
Managers responsibility for overseeing grant close outs. In carrying out this function, the



                                                                                        19
                                                                                   APPENDIX II




Portfolio Mangers are required to coordinate with Country Representatives and the Finance
Division.


Recommendation 3: We recommend that ADF replace its partner organization in
Namibia as soon as possible.

ADF Response: We concur.

Discussion: ADF will extend the expiration date of the NAMDEF cooperative agreement from
July 31, 2005 to December 31, 2005. The extension will provide sufficient time for ADF to
solicit and award a new cooperative agreement before the current one ends. ADF will issue a
request for applications (RFA) by August 15, 2005. We expect to award the new cooperative
agreement by December 15, 2005.


Recommendation 4: We recommend that ADF defer implementing new development
projects in Namibia until it has a replacement partner organization in Namibia to
monitor, report on and evaluate its in-country activities.

ADF Response: We concur.

Discussion: Last May, ADF cancelled all plans to develop new projects in Namibia this fiscal
year. Once the new Partner Organization is in place, we will resume project development
activities.

Recommendation 5: We recommend that the African Development Foundation require
that ADF’s Board of Directors be immediately notified of any project where the country
representative or partner organization is not actively engaged in the monitoring,
evaluation and reporting of project activities.

ADF Response: We concur.

Discussion: The Foundation’s senior management presents a project portfolio assessment to
the Board of Directors at its regularly scheduled meetings. In addition, prior to grant award,
the ADF President will provide the Board written notification of any instance where the Country
Representative or Partner Organization is not expected to actively participate in the monitoring,
evaluation, and reporting of the project’s activities.
While we agree that greater involvement of ADF’s Partner Organization in the implementation
of the Jigawa Housing program may have facilitated more timely notification of implementation
problems, we believe the program’s construction delays and cost overruns resulted in large
part from the risks inherent in the pilot nature of the scheme and the economic and political
dynamics in Nigeria. The program took a novel approach to the development of housing for
the poor that relied heavily on the participation of the community at each level. There were
little data on which to establish project performance targets or clearly identify risks. Lessons
learned in the implementation of the program provide a basis for the future development of
such projects in the State of Jigawa and elsewhere. The Nigerian economic and political
environment at times contributed to delays and cost increases. For example, rising inflation



                                                                                          20
                                                                                     APPENDIX II




increased the cost of construction materials such as concrete, steel reinforcing, metal roof
sheets, doors, and windows. In one instance, the construction workers left a work site in
response to a nation-wide strike called by the Nigerian labor union to protest rises in the price
of fuel.

Nevertheless, the project performed well by Jigawa State standards. In approximately fifteen
months, the ADF program financed the construction of more houses than the Jigawa State
Housing Authority had built since it was established in 1992. The average cost of a house
constructed under the ADF program was only about $3,500 compared to approximately
$10,000 for comparable houses built by the Jigawa State Housing Authority.

In addition, the quality of the construction is commendable by Nigerian standards. The Jigawa
Housing program received accolades from across the country and is seen as a model for
community housing development in Jigawa and other states in the country. In follow-up visits
to the program sites, we confirmed that although there were some instances of poor
construction quality, most problems resulted from inadequate upkeep and lack of routine
maintenance by home owners.

The Audit Report includes a photograph of a crumbling wall outside one of the houses to
illustrate structural flaws in the construction. However, construction of exterior walls was not
within the scope of the Jigawa program, and no ADF funds were used for exterior walls.
Rather, some households, as the one in the photograph, used their own resources to construct
these walls. (We also note that in our follow-up site visit, the pictured wall was the only
crumbling one we found.) Another photograph included in the Audit Report to illustrate “poor
drainage” in fact depicts the household’s fresh washing water -- which does not include raw
sewage. One of the significant advances of the program was to provide sanitation for raw
sewage through the installation of a ventilated improved pit (VIP) within the compound.
Finally, regarding the third photograph in the Audit Report, we recently learned that the
community-based organization in Marawa has made arrangements for a welder to repair
and/or reinforce all exterior doors on the houses, including those that are not damaged.

Recommendation 6: We recommend that the African Development Foundation engage
a public accounting firm to conduct an audit of the project’s expenditures, in
accordance with generally accepted government audit standards.

ADF Response: We concur.

Discussion: In January 2004, ADF’s in-house auditor conducted a financial review of the
Jigawa Housing program as part of ADF’s decision-making process on whether to increase
funding to the program. By August 31, 2005, ADF will award a contract to a public accounting
firm on the USAID/RIG-approved list. The contract will require the firm to conduct an audit of
the Jigawa Housing program in accordance with the generally accepted government audit
standards (GAGAS).

Recommendation 7: We recommend that the African Development Foundation formally
establish a minimum audit threshold level and an effective methodology for determining
when its awards should be audited.




                                                                                            21
                                                                                     APPENDIX II




ADF Response: We concur.

Discussion: Management agrees with the recommendation to formally establish a minimum
audit threshold level and an effective methodology for determining when its awards should be
audited. ADF implemented this recommendation in June 2005 by integrating its draft policy on
this topic into its official policy manual.

In response to OIG Audit Report No. 9-ADF-03-005-P, ADF developed and implemented Draft
Guidelines for Audits of Grants and Cooperative Agreements in March 2003. The guidelines
established a minimum audit threshold level and described ADF’s methodology for determining
when its development grants, technical cooperative grants, and cooperative agreements would
be audited based on established criteria.

Although the guidelines were not formalized, they were approved by the President and
General Counsel before implementation. ADF’s draft guidelines lowered its materiality
threshold for selecting grants to be audited from $100,000 to $50,000, and ADF established
other risk factors that incorporate information obtained from other management fund control
activities, such as site visits, ongoing management review of quarterly financial and program
reports, and so on, to determine the population for audit sampling. For Fiscal Year 2004 and
Fiscal Year 2005, the grant audit population was selected using these criteria.

Recommendation 8: We recommend that the African Development Foundation, by
October 1 of each year, prepare and submit a comprehensive annual audit plan to the
USAID/OIG that includes its audit plans for grants and Partner Organizations.

ADF Response: We concur.

Discussion: ADF will submit a comprehensive annual audit plan for grants and Partner
Organizations to the USAID/OIG by October 1 of Fiscal Year 2006 and every year thereafter.
As an added precaution to ensure we meet this date, ADF will amend its Chief Financial
Officer’s annual performance plan to add an element that requires submission of the annual
audit plan to the USAID/OIG by October 1.

In response to OIG Audit Report No. 9-ADF-03-005-P, ADF submitted its comprehensive
annual audit plan in March 2003 to the USAID/OIG, which sets forth the Foundation’s plans for
grants and cooperative agreements for that year. The plan included the population of grants
and cooperative agreements to be audited and the methodology to support the audit
population. It stipulated that Partner Organizations were expected to comply with audit
requirements in their cooperative agreements, i.e., they have to engage an independent
accounting firm to perform yearly audits.

In September 2003, ADF submitted its comprehensive Fiscal Year 2004 annual audit plan to
USAID/OIG, which included the methodology to support the audit population. The plan also
stipulated that cooperative agreements with partners were expected to comply with audit
requirements in their agreements that required yearly independent audits. ADF did not finalize
its selection of its Fiscal Year 2005 population until third quarter, and therefore did not submit
its plan to USAID/OIG on a timely basis.




                                                                                            22
                                                                                  APPENDIX II




Recommendation 9: We recommend that the African Development Foundation
establish procedures to perform desk and quality control reviews of completed financial
audits, using GAGAS and its own audit guidelines, to determine compliance with audit
standards.

ADF Response: We concur.

Discussion: ADF has implemented this recommendation. Following the 2003 Audit Report
cited above, ADF drafted a policy establishing procedures to perform desk and quality control
reviews of completed financial audits, using GAGAS and its own audit guidelines, to determine
compliance with audit standards.

Documentation supports ADF’s performance of quality control reviews (QCRs) of working
papers of completed financial audits in Benin and Ghana in Fiscal Year 2004 for a selected
sample of grant and cooperative agreement audits. ADF’s Financial Control Officer performed
the on-site, in-country reviews to ensure that work was performed in compliance with ADF’s
established guidelines (Draft Guidelines for Audits of Grants and Cooperative Agreements,
Attachment E), which ADF finalized in June 2005. The reviews were also conducted in
accordance with generally accepted government auditing standards (GAGAS) as a means to
assess audit quality.

Recommendation 10: We recommend that the African Development Foundation
develop screening procedures to ensure the competency of the independent audit firms
it selects to perform its external financial audits and, where possible, use independent
audit firms already on the USAID Office of Inspector General’s list of approved audit
firms.

ADF Response: We concur.

Discussion: ADF established draft guidelines for evaluating and selecting a qualified
independent audit firm in March 2003. Documentation supports the ADF Financial Control
Officer’s use of an Accounting Firm Questionnaire as an evaluation tool in the process of
selecting auditors that would perform grant audits in Fiscal Year 2004.

The Draft Guidelines for Audits of Grants and Cooperative Agreements used for the Fiscal
Year 2004 audits did not specifically require exclusive use of independent audit firms already
on the USAID Office of Inspector General list of approved audit firms. Nevertheless, ADF
voluntarily complied with this recommendation for Fiscal Year 2004. Furthermore, the
Guidelines have been updated to reflect the need to use such approved firms to the extent
possible, and ADF has required the use of such firms for Fiscal Year 2005 grant audits when
possible and cost effective.

The only independent audit firm selected by ADF for Fiscal Year 2004 audits that was not on
the approved USAID referral list was Global Auditors in Ghana. Documentation exists to show
that ADF’s Financial Control Officer performed the evaluation and selection process to
determine if Global Auditors was a qualified independent audit firm in accordance with ADF’s
established draft guidelines.



                                                                                          23
                                                                                  APPENDIX II




In addition, documentation exists to show that ADF instructed partners to comply with this
recommendation in February 2004. The written instruction is as follows:

In hiring an independent audit firm, the Partner shall follow the same procurement rules that
apply to their cooperative agreement. The Partner’s Board of Directors is required to utilize
audit firms referred by the US Agency for International Development (USAID). A referral list of
Audit Firms Eligible to Perform Non-Federal Financial Audits is provided (was provided as an
Attachment B). However, in countries not covered by the USAID referral list, pre-approval of an
audit firm is required by ADF’s Financial Control Officer (or Chief Financial Officer).

Recommendation 11: We recommend that the African Development Foundation
transfer the $101,000 in funds it received from the government of Guinea, under its
partnering contract for services provided to Guinea, into the general fund of the United
States Treasury.

ADF Response: We concur.

Discussion: ADF is actively pursuing the means to transfer the funds to the United States
Treasury. Due to the difficulties in converting the Guinea franc into United States dollars, ADF
is pursuing two avenues to effect the transfer: using an international paying agent that
maintains an account in Guinea or working with the United States Embassy in Guinea to assist
in returning the funds to the Treasury. The actual transfer will be completed as soon as
possible.

Recommendation 12: We recommend that the African Development Foundation take
action to collect the balance of payments of about $135,000 due from the government of
Guinea under two partnership contracts for services provided to Guinea but for which
the Fund was never paid. If the payments are collected ADF should transfer the funds
for deposit into the general fund of the United States Treasury as miscellaneous
receipts, but if the funds are not recoverable, ADF should document in its records that
the remaining payments are uncollectible.

ADF Response: We concur.

Discussion: In fact, ADF has made repeated attempts to collect the funds, all of which have
been unsuccessful. Due to the immateriality of the amount, management has decided that the
remaining funds are uncollectible and has documented its records accordingly.

Recommendation 13: We recommend that the African Development Foundation obtain
documentation to justify the payments of $10,707. If the documentation justifying the
payments cannot be obtained, we recommend that the ADF Chief Financial Officer take
action to recover as appropriate, the above-mentioned unsupported costs.

ADF Response: We concur with the recommendation, but disagree in part with the finding.

Discussion: The $10,707 in question includes $450 in travel advances and $10,257 in salary
payments to the consultant in question.



                                                                                          24
                                                                                  APPENDIX II




ADF agrees that the consultant has not filed a voucher to liquidate a $450 travel advance he
received from ADF under travel authorization number TA T03-077. For some time the
consultant was incapacitated and unable to submit a voucher. Recently, ADF has learned that
the consultant has recovered to the point where he is able to function mentally and physically.
Thus, ADF sent the consultant an e-mail (copy attached) requesting that he submit a travel
voucher.
We believe ADF has on file adequate documentation to support the payment of the $10,257 in
salary payments. The consultant in question signed a contract with the Namibia Development
Foundation (NAMDEF), ADF’s partner organization in Namibia. He did not have a direct
contractual relationship with ADF to provide services. The contract called for NAMDEF to
make three installment payments upon delivery of work products specified in the contract’s
terms of reference. Based on the consultant’s delivery of satisfactory products, NAMDEF
requested two disbursements from ADF to satisfy the first two of the three installment
payments due under the contract. The full value of the contract was not paid out due to the
consultant’s accident and incapacitation, which occurred approximately three quarters of the
way through the contract period.

The first NAMDEF payment of $6,257 was made on August 27, 2003 against a signed invoice
from the consultant (copy attached) dated August 10, 2003 for services completed and
delivered to NAMDEF in July 2003. The invoice and attached disbursement request from
NAMDEF requested payment to the consultant for the delivery of the “first model project paper”
and “all training modules,” i.e., two of the deliverable work products under the contract. The
disbursement request from the NAMDEF Director affirmed this was the first installment under
the contract for producing the first model project paper and training modules.

NAMDEF’s disbursement request for the second payment of $4,000, sent to ADF on October
18, 2003, indicated payment was for services and products the consultant had delivered up
through the time of the accident on August 18, 2003. This payment was for the financial
analysis the consultant produced as input into a final project proposal that NAMDEF was
assisting an applicant to develop. Despite the timing of the disbursement request, the
payment in question was only the second of three scheduled installments under the contract.
The disbursement was requested by NAMDEF based on deliverable products and services the
contractor had provided.

ADF is satisfied that the two installment payments NAMDEF made to the consultant in respect
to work products and contract deliverables NAMDEF confirmed receiving were made in
accordance with the contract’s terms. We therefore believe that ADF has sufficient
documentation to support the payments.

Recommendation 14: We recommend that the African Development Foundation recover
the $146,000 paid to cover the cost of medical evacuation and treatment for NAMDEF’s
consultant.

ADF Response: We concur with the recommendation, but disagree with the finding.

Discussion: For the reasons stated below, we do not agree with the Report’s finding that
ADF’s decision to pay $146,002 in medical costs for a consultant of its Namibian Partner was



                                                                                         25
                                                                                     APPENDIX II




improper. In October 2003, ADF’s General Counsel determined that the Foundation was not
legally liable for the consultant’s medical costs for the reasons stated by the USAID Inspector
General in the Audit Report.
The ADF President confirmed this determination in a meeting with the consultant’s
representative in November 2003. In a letter dated December 23, 2003 to the consultant’s
representative, ADF’s President reaffirmed that the Foundation was not liable to the consultant
and urged the family of the consultant to take responsibility for his medical care. ADF
continues to maintain that it has no legal liability for the consultant’s injuries.

In a cable dated December 23, 2003, the United States Ambassador to Namibia informed ADF
that due to its refusal to pay the consultant’s medical bills, the local treating physician and
facility had informed him that they would no longer provide their services to United States
citizens. Based on the Ambassador’s appeal, the treating facility confirmed that it would admit
United States citizens, which would exclude most ADF contractors (including ADF’s Namibia
Country Representative) since generally they are not United States citizens. (The Foundation
later learned that the treating facility would not admit any employee, consultant, or agent of
ADF.) Although limited in its capacity, the medical facility that treated the consultant is
considered the only one in Namibia that meets acceptable care standards. The Ambassador
advised ADF to pay the medical expenses, stating:

The non-payment by ADF of the amount cited above is having a strong negative impact on the
reputation and standing of the U.S. Mission and the ADF, and clearly impinges on the
Mission’s ability to guarantee medical treatment for its employees, contractors, official visitors,
and other U.S. citizens. In addition, this unfortunate circumstance further complicates the
Namibian Government’s view of the ADF. For all of these reasons, it is imperative that ADF
take any and all necessary steps to pay this bill in full before the end of January 2004.

In addition, SOS International notified the Foundation that it would not provide ADF medical
evacuation services unless ADF paid for services provided to the consultant.

Given the dire circumstances and the risks to life they posed, ADF determined that payment of
the consultant’s medical expenses is allowable by the African Development Foundation Act
(ADF Act) [U.S. Code Title 22, Chapter 7, section 290h] and that such payment was in the best
interest of the United States.

Section 290h-4(a) (12) of the ADF Act states: “The Foundation, as a corporation -- shall have
such other powers as may be necessary and incident to carrying out this sub-chapter”. The
inability of ADF to guarantee availability of adequate medical treatment to its employees,
consultants, and agents in Namibia would seriously impede the implementation of the
Foundation’s program in that country. ADF would find it extremely difficulty to deploy the
necessary long-term, temporary duty, and consultant expertise it needs to implement the
program if it could not assure such individuals that they would have local access to adequate
medical treatment and evacuation services. Concerns about access to proper medical care
are valid, particularly given the high rate of fatal automobile accidents in Namibia.

In addition, ADF relies heavily on the cooperation of the Government of Namibia for essential
support, such as those related to customs clearance and tax exemption, to implement its
program. The advice from the Ambassador indicated that failure to pay the medical expenses



                                                                                             26
                                                                                     APPENDIX II




would complicate relationships between the Government of Namibia and ADF. ADF’s
experience in other countries underscores the added difficulties in program implementation
that can result from tensions with the host government.

ADF’s payment of the medical expenses was in the best interest of the United States
Government. In addition to hampering ADF’s ability to field expertise needed by its program,
the United States Ambassador determined that ADF’s failure to pay the medical expenses
would impinge on the United States Mission’s ability to guarantee proper medical treatment to
its employees, contractors, official visitors, and other United States citizens – which would
create serious obstacles to the furtherance of ADF’s and other United States agencies’
programs in Namibia. ADF’s decision is consistent with holdings of the Comptroller General in
analogous situations. For instance, in a case involving payment of examinations to detect the
danger of arsenic poisoning in civilian employees in the Department of Army’s Chemical
Warfare Service, the Comptroller General held that the use of appropriated funds for the
examinations was proper because if the “Government [were] unable or unwilling to provide
means for offsetting the ever-present danger of arsenic poisoning the situation might well
constitute a serious obstacle to the securing of qualified personnel for this work.” [Decision of
the Comptroller General, B-27022]. In Matter of : Employee of Office of Dependent Schools –
Medical Necessity for Use of Foreign Air Carrier [B-202413, November 16, 1981], the
Comptroller General held that although U.S. carriers were available, the use of foreign air
carriers was appropriate for the medical evacuation of a former contract employee of the
Department of Defense Dependents School in Hemer, Germany and in the interest of the
United States since under the circumstances, the use of foreign air carriers may be considered
a medical necessity.

ADF characterized the payments as humanitarian for two principal reasons. First, the
payments were, in fact, humanitarian in nature since they were motivated in part by a genuine
concern for the safety and welfare of ADF and the U.S. Mission’s employees, contractors,
agents, and other United States citizens in Namibia. Second, for tactical reasons, the
Foundation did not want to send a signal that the consultant and the service providers may
have interpreted as an admission by ADF of legal liability for the consultant’s injuries. This is a
critical point since all service providers and the consultant had indicated their intent to sue
ADF. Indeed, the consultant filed an administrative claim against ADF, which was denied, and
he later sued ADF in federal court. Characterizing the payments as humanitarian clearly
indicated that ADF believed it had no legal obligation for the expenses.

Notwithstanding that ADF believes the payment of the consultant’s medical expenses are
allowable under the ADF Act and that they were made in the best interest of the United States,
we believe that ADF, as a responsible steward of United States funds, should now pursue
reimbursement of the expenses. The consultant’s condition was critical for more than a year.
The Foundation recently learned that he has recovered to point that he is able to perform some
work. But for the actions of the consultant, the obstacles to implementing ADF’s program and
furthering the United States Mission in Namibia discussed above would not have developed.
Particularly given the consultant’s improved health status, we believe he has a moral obligation
to reimburse ADF. Therefore, we will initiate formal collection procedures to recover the total
amount it disbursed for the consultant’s medical expenses.




                                                                                            27
                                                                         APPENDIX II




    SUMMARY ADF RESPONSE TO AUDIT REPORT 9-ADF-05-00X-P


No. OIG Recommendation                ADF        Corrective Action       Estimated
                                      Response                           Final Action
                                                                         Date
1      We recommend that ADF          Concur     Assign Portfolio        September
       close-out expired grants and              Managers with           30, 2005
       take immediate action to                  responsibility for
       recover all material amounts              eliminating closeout
       due from grantees and, as                 backlog
       necessary, de-obligate
       undisbursed funds.

2      We recommend that ADF          Concur     Assign Portfolio        February
       assign close-out                          Managers with           2005
       responsibilities to key                   responsibility for
       individuals.                              overseeing grant
                                                 close out
3      We recommend that ADF          Concur     Extend the current      December
       replace its partner                       Partner Organization    31, 2005
       organization in Namibia as                agreement through
       soon as possible.                         December 2005 and
                                                 award a new
                                                 agreement.
4      We recommend that ADF          Concur     Cancel plans for        Implemented
       defer implementing new                    development of new      mid-May
       development projects in                   projects in Namibia     2005
       Namibia until it has a
       replacement partner
       organization in Namibia to
       monitor, report on and
       evaluate its in-country
       activities.

5      We recommend that the          Concur     Revise operating        September
       African Development                       procedures to require   15, 2005
       Foundation require that                   notice to the Board
       ADF’s Board of Directors be
       immediately notified of any
       project where the country
       representative or partner
       organization is not actively
       engaged in the monitoring,
       evaluation and reporting of
       project activities.




                                                                                28
                                                                         APPENDIX II




No. OIG Recommendation               ADF        Corrective Action        Estimated
                                     Response                            Final Action
                                                                         Date
6   We recommend that the            Concur     Award contract to a      August 31,
    African Development                         public accounting firm   2005
    Foundation engage a public                  to conduct the audit
    accounting firm to conduct an
    audit of the project’s
    expenditures, in accordance
    with generally accepted
    government audit standards.

7   We recommend that the            Concur     Integrate informal       June 2005
    African Development                         draft policy on audit
    Foundation formally establish               threshold into the ADF
    a minimum audit threshold                   policy and procedures
    level and an effective                      manual.
    methodology for determining
    when its awards should be
    audited.

8   We recommend that the            Concur     Incorporate into the     August 31,
    African Development                         CFO’s annual             2005
    Foundation, by October 1 of                 performance plan
    each year, prepare and                      submission of the
    submit a comprehensive                      annual
    annual audit plan to the                    comprehensive audit
    USAID/OIG that includes its                 plan to the
    audit plans for grants and                  USAID/OIG by
    Partner Organizations.                      October 1 of each
                                                year.
9   We recommend that the            Concur     a. Formalize draft       September
    African Development                         procedures developed     30, 2005
    Foundation establish                        in 2003 by
    procedures to perform desk                  incorporating them
    and quality control reviews of              into the ADF Manual.
    completed financial audits,
    using GAGAS and its own                     b. Assign staff in the
    audit guidelines, to determine              Office of Finance and
    compliance with audit                       Budget to lead desk
    standards.                                  and quality control
                                                reviews.




                                                                                29
                                                                            APPENDIX II




No. OIG Recommendation                   ADF        Corrective Action       Estimated
                                         Response                           Final Action
                                                                            Date
10   We recommend that the African       Concur     Formalize draft         September
     Development Foundation                         procedures              30, 2005
     develop screening procedures                   developed in 2003
     to ensure the competency of                    by incorporating
     the independent audit firms it                 them into the ADF
     selects to perform its external                Manual.
     financial audits and, where
     possible, use independent audit
     firms already on the USAID
     Office of Inspector General’s
     list of approved audit firms.

11   We recommend that the African       Concur     Identify and select a   August 31,
     Development Foundation                         workable means to       2005
     transfer the $101,000 in funds it              transfer the funds.
     received from the government
     of Guinea, under its partnering
     contract for services provided
     to Guinea, into the general fund
     of the United States Treasury.

12   We recommend that the African       Concur     Document files to       August 31,
     Development Foundation take                    show payments are       2005
     action to collect the balance of               uncollectible
     payments of about $135,000
     due from the government of
     Guinea under two partnership
     contracts for services provided
     to Guinea but for which the
     Fund was never paid. If the
     payments are collected ADF
     should transfer the funds for
     deposit into the general fund of
     the United States Treasury as
     miscellaneous receipts, but if
     the funds are not recoverable,
     ADF should document in its
     records that the remaining
     payments are uncollectible.




                                                                                   30
                                                                          APPENDIX II




No. OIG Recommendation              ADF Response     Corrective Action    Estimated
                                                                          Final Action
                                                                          Date
13   We recommend that the          Concur with the Document files with   September
     African Development            recommendation, supporting            30, 2005
     Foundation obtain              but disagree in information
     documentation justifying the   part with the
     payments of $10,707. If the    finding
     documentation to justify the
     payments cannot be obtained,
     we recommend that the ADF
     Chief Financial Officer take
     action to recover as
     appropriate, the above-
     mentioned unsupported costs.

14   We recommend that the          Concur with the   Initiate formal     October
     African Development            recommendation, collection process    30,2005
     Foundation recover the         but disagree with
     $146,000 paid to cover the     the finding.
     cost of medical evacuation
     and treatment for NAMDEF’s
     consultant.




               U.S. Agency for International Development
                       Office of Inspector General
                       1300 Pennsylvania Ave, NW
                         Washington, DC 20523
                           Tel: (202) 712-1150
                           Fax: (202) 216-3047
                           www.usaid.gov/oig




                                                                                 31
